WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Dale Chester Holcombe

20-6123
v.

Secretary, Florida Department of Corrections, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

November 23, 2020

(Type or print) Name

Wesley Heidt
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Office of the Attorney General, State of Florida

Address

444 Seabreeze Boulevard, Suite 500

City & State
Phone

Daytona Beach, FL

386-238-4990

Zip
Email

32118

crimappdab@myfloridalegal.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Crystal McBee Frusciante, 11110 W Oakland Park Blvd., Ste. 388, Sunrise, FL 33351

